No.
IN THE SUPREME COURT OF THE UNITED STATES

GARY RICHARDSON, PETITIONER,
versus
STATE OF COLORADO, RESPONDENT
Proof of Service

I, Nicole M. Mooney, do swear or declare that on this date, August 28,
2020, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Colorado Attorney General
1300 Broadway, 9th Fl
Denver, CO 80203
Attorney for Petitioner:

____________________________
NICOLE M. MOONEY, Bar No. 302572
PO Box 3089
Denver, CO 80201
(303) 952-0398

